National Aeronautics and Space Administration
Office of Inspector General
Washington, DC 20546-0001




                                                     April 24, 2009

TO:                 Assistant Administrator for Procurement

FROM:               Assistant Inspector General for Auditing

SUBJECT:            Final Memorandum on the Audit of NASA’s Implementation of Defense
                    Contract Audit Agency Audit Recommendations during the
                    Administration of Cost-Reimbursable Procurement Actions
                    (Report No. IG-09-014; Assignment No. A-08-013-00)


The Office of Inspector (OIG) conducted an audit to assess NASA’s implementation of the
Defense Contract Agency’s (DCAA) audit recommendations to recoup questioned costs 1
from NASA contractors. NASA contracts with DCAA to provide contract audit services.
In fiscal years (FYs) 2005–2007, DCAA issued 50 audit reports with at least $100,000 of
questioned costs on NASA’s cost-reimbursable procurement actions. Implementing
DCAA’s recommendations should help to ensure that NASA pays only allowable,
allocable, and reasonable costs to contractors. NASA also contracts with the Defense
Contract Management Agency (DCMA) to provide contract administration functions.
DCMA administrative contracting officers dispositioned 36 of the reports and NASA
contracting officers dispositioned 14 of the reports.

The overall objective of this audit was to determine the extent to which NASA
implemented DCAA’s audit recommendations during the administration of cost-
reimbursable procurement actions. Specifically, we determined whether NASA
contracting officers and DCMA administrative contracting officers sustained DCAA-
questioned costs and promptly implemented and maintained accurate records of actions
resulting from DCAA recommendations, as required by Federal and Agency
requirements. We also reviewed internal controls as appropriate. (See Enclosure 1 for
details on the audit’s scope and methodology.)

Executive Summary
NASA contracting officers sustained 2 the costs DCAA questioned at a rate of 87 percent,
significantly above the DCAA average of 61 percent; whereas DCMA administrative
contracting officers sustained questioned costs at a rate of 44 percent, well below the


1
    Questioned costs can be costs that are questioned because of (1) an alleged violation of law, regulation, or
    contract; (2) lack of support by adequate documentation; or (3) a finding that an expenditure is
    unnecessary or unreasonable.
2
    Sustained costs are the portion of questioned costs that the contractor and agency agree should not have
    been charged to the Government.
                                                                                           2


DCAA average. While their sustention rate was lower, we determined that DCMA’s
decisions were adequately supported by documentation maintained in their contract files.

When NASA contracting officers performed contract administration duties, they
promptly implemented DCAA recommendations and maintained accurate records on the
status, resolution, and disposition of findings in the contract files. However, when NASA
delegated contract administration to DCMA, the contracting officers did not always
maintain sufficient oversight on the status, resolution, and disposition of significant audit
findings and recommendations. This occurred because NASA contracting officers did
not always comply with NASA guidance to communicate with DCMA administrative
contracting officers before or during contract negotiations or subsequent to the resolution
of DCAA recommendations.

In addition, while DCMA maintained a system for tracking, monitoring, and reporting the
resolution status of DCAA recommendations, NASA did not have sufficient oversight or
tools in place to determine whether all reportable contract audits dispositioned by NASA
or DCMA were promptly implemented or resolved. Without adequate visibility over
dispositioning, NASA cannot be sure that DCAA’s recommendations were resolved in
NASA’s best interests or that recommendations were promptly implemented. Increased
monitoring of both NASA’s and DCMA’s audit resolution activities would allow NASA
to monitor the status of all significant audit recommendations and determine the
appropriateness of audit resolution actions taken by NASA and DCMA personnel.

In our March 24, 2009 draft of this memorandum, we recommended that the Assistant
Administrator for Procurement issue a memorandum directing NASA contracting officers
to communicate with DCMA administrative contracting officers on the resolution and
disposition status of DCAA findings and recommendations and to enter and update the
information on reportable contract audit reports in NASA’s Corrective Action Tracking
System (CATS II) until the audit recommendations are resolved and dispositioned. We
also recommended that the Assistant Administrator for Procurement revise NASA
guidance to clearly state that all reportable contract audit reports DCMA dispositions are
to be entered into CATS II or request that DCMA provide periodic status reports on the
resolution of DCAA audit recommendations to the Office of Procurement.

The Assistant Administrator for Procurement concurred with our recommendations and
stated that a letter will be issued reemphasizing the Agency’s guidance, Procurement
Management Surveys will be used to monitor compliance with the Agency’s guidance,
and policy will be amended to clarify that all reportable audits that NASA resolves and
dispositions will be input and updated at least quarterly in CATS II. In addition, the
Office of Procurement will discuss a periodic status reporting process with DCMA for
reportable audits that are tracked by DCMA. The corrective actions described by
management are responsive to our recommendations. The recommendations are resolved
and will be closed upon completion and verification of management’s corrective action.
(See Enclosure 2 for the full text of management’s comments.)
                                                                                                              3


Background
NASA contracting officers enter into contracts for the delivery of goods and services to
the Agency and are responsible for ensuring the performance of all necessary actions for
effective contract performance and administration. NASA contracting officers are also
responsible for ensuring that the Agency only pays contractor costs that are allowable
under the cost principles of the Federal Acquisition Regulation (FAR). To help ensure
that Agency contractors provide goods and services at fair and reasonable prices, NASA
contracting officers delegate some contract administrative functions to DCMA and
request contract audit services from DCAA. For FYs 2005–2007, NASA paid
approximately $144 million to DCMA for contract administration services and
$50 million to DCAA for contract audit services.

DCMA provides contract administration and support services for the Department of
Defense (DoD) and other Federal agencies including NASA. DCMA’s administrative
contracting officers work directly with Federal agency’s contractors to ensure that
supplies and services are delivered on time, at projected cost, and meet all performance
requirements. For example, administrative contracting officers monitor contractors’
performance and management systems to ensure that cost, product performance, and
delivery schedules comply with the terms and conditions of the contracts.

DCAA provides accounting, financial advisory, and contract audit services to DoD and
other Federal agencies including NASA. DCAA contract audits are intended to assist
procurement and contract administration personnel by providing information or advice as
to whether contractor costs are allowable, reasonable, and allocable. The information is
based on an analysis of the contractor’s estimated and incurred costs, a review of the
contractor’s cost control systems, and other analyses and reviews of the contractor’s
financial and accounting records supporting proposed and incurred costs. Procurement
and contract administration personnel also use DCAA’s services to assist in the
negotiation, award, administration, re-pricing, and settlement of contracts.

Delegation or retention of contract administration 3 is at the discretion of the NASA
contracting officer. To delegate the contract administration functions to DCMA, NASA
FAR Supplement (NFS), section 1842.202, Assignment of Contract Administration,
requires that the contracting officer prepare NASA Form 1430, Letter of Contract
Administration Delegation, General. By accepting the delegation, the DCMA
administrative contracting officer is required to provide to the NASA contracting officer
copies of all significant communications related to the administration of the delegated
contract. The latest revision to NASA Form 1430, May 2007, specifically states that the
DCMA administrative contracting officer should provide detailed information to the
NASA contracting officer on the resolution and disposition status of DCAA audit
findings and recommendations for NASA contracts. In accordance with NFS, section
1842.7301, NASA External Audit Follow-Up System, NASA contracting officers are

3
    The contracting officer’s decision to either retain or delegate contract administration is based on a number
    of factors such as type of contract, nature of work to be performed, and complexity of contract
    requirements.
                                                                                           4


required to maintain dialogue—i.e., communicate—with their DCMA administrative
contracting officer counterparts, to include reviewing and understanding the status of
significant audit findings. The NFS further requires that all reportable audits shall be
entered into the CATS II with the information updated quarterly until all the audit
recommendations are resolved and dispositioned.

In FYs 2005–2007, DCAA issued 50 audit reports on cost-reimbursable procurement
actions with at least $100,000 of questioned costs to be dispositioned by a NASA
contracting officer or DCMA administrative contracting officer. DCMA administrative
contracting officers dispositioned 36 of those audit reports and NASA contracting
officers dispositioned 14 of the reports. To determine how effective NASA and DCMA
were in sustaining DCAA questioned costs, we compared NASA and DCMA sustention
rates with DCAA’s average sustention rates, which were 56 percent for FY 2005,
64 percent for FY 2006, and 63 percent for FY 2007 or an average of 61 percent for the
3 fiscal years.

Sustention of DCAA Questioned Costs
Of the 50 DCAA audit reports, we found that for the 14 reports that NASA dispositioned,
the average sustention rate for questioned costs was higher than DCAA’s average of 61
percent. NASA’s average sustention rate for the 14 reports was 87 percent of the
questioned costs. Of the 14 audit reports NASA contracting officers retained and
dispositioned, we reviewed 5 and determined that the contract files included sufficient
evidence of actions taken as a result of implementing DCAA audit recommendations.
For example, the contract files for 3 reports, which all related to one contractor, showed
that the contractor concurred with DCAA’s questioned costs finding and all questioned
costs were sustained by the NASA contracting officer and properly removed from the
contractor’s recorded cumulative allowable costs.

Of the 36 audit reports DCMA dispositioned, the sustention rate for 8 of those reports
caused DCMA’s overall average sustention rate to fall to 44 percent, well below DCAA’s
average (see the table).
                                                                                                         5


          Table. The Eight Reports for Which DCMA’s Questioned Costs Sustention Rates
                 Were Lower Than DCAA’s Average Sustention Rate of 61 Percent
           Audit Report                Costs            Costs            Sustention Rate
              Number                 Questioned       Sustained             (percent)
       06171-2003M10110001                   $ 2,027,000            $ 459,000                 22.64
     03221-
                                              43,157,000            1,546,000                   3.58
       2002T10100001
        2003T10100001                         23,317,000            1,767,000                   7.58
        2004T10100001                          8,097,000              828,000                 10.23
     4171-
       1999M10100004 S1a
                                                 242,000               60,000                 24.79
       2000M10100014 S1a
       2001M10100009 S1a
     03521-
                                               2,309,000                 1,000                  0.04
       2003B10100001
       2004B10100001                           2,094,000               20,000                   0.96
      2005B10100001                            2,241,000                     0                  0
       Total                                 $83,484,000           $4,681,000                   5.61
a
    DCAA issued a supplemental report on December 20, 2006, that replaced these three reports due to a revised
    incurred cost proposal submitted in May 2006.

We conducted further review of the eight audit reports to determine whether DCMA had
adequate documentation to support the lower sustention rate and found that DCMA’s
decisions were adequately supported by documentation maintained in the contract files.
Specifically, we found that the DCMA administrative contracting officers prepared
memorandums that included adequate documentation to support their agreement or
disagreement with the DCAA findings and recommendations. For example, on one
contract, DCAA questioned the executive compensation costs based on FAR 31.205-6,
Compensation for Personal Services, which states that costs incurred after January 1,
1998, for compensation of a senior executive in excess of the benchmark compensation
amount (as determined by the Office of Federal Procurement Policy) are unallowable.
During negotiation, the contractor disagreed with DCAA and claimed that because the
contract with NASA was awarded on October 1, 1996 (i.e., prior to the statutory
limitation deadline), invoking the mandate represented a breach of contract. The
contractor cited a U.S. Court of Claims decision (Case Numbers 99-45C and 99-865C
filed September 15, 2000) in which the court held that retroactive application of the
statutory cap on the allowability of senior executive compensation was a breach of
contract. Consequently, DCMA conducted further research on the court decisions, in
coordination with NASA officials, and DCMA and NASA collectively agreed to accept
the questioned executive compensation costs without any costs being sustained.

In another example, DCAA questioned the contractor’s insurance cost claim, citing that
claims that had been incurred but not reported were contingencies based on historical
medical costs previously incurred by the contractor and, therefore, unallowable based on
FAR 31.205-19, Insurance and Indemnification, and FAR 31.205-7, Contingencies. In
this case, the DCMA administrative contracting officer solicited technical assistance from
                                                                                          6


a DCMA Contractor Insurance/Pension Review specialist to evaluate the contractor’s
insurance cost claim. The DCMA Contractor Insurance/Pension Review specialist
concluded that the practice of including incurred but not reported costs was reasonable
based on a review of Cost Accounting Standard Number 416, Accounting for Insurance
Costs, and recommended that the DCMA administrative contracting officer accept the
contractor’s insurance cost claim.

Oversight of NASA Contracting Officers Implementing DCAA
 Recommendations through the Agency’s Follow-Up System
NASA did not maintain complete records of actions taken to implement DCAA audit
recommendations when NASA retained resolution and disposition authority in the
Agency’s audit follow-up system. Because the system contained incomplete data, the
Agency could not ensure that significant audit issues were promptly and properly
resolved or rely on the system for adequate oversight and reporting purposes.

Of the 14 audit reports NASA contracting officers retained and dispositioned, only 4
were tracked in the audit follow-up system. NASA contracting officers did not track 8 of
those reports because they believed that tracking audit resolution was only required when
contractors disagreed with findings of questioned costs. For the 8 reports not tracked, the
contractors agreed with the findings, and the contracting officers were able to remove the
questioned costs directly from the contractors’ allowable costs. For the remaining 2 of
the 14 reports, we were unable to determine why the contracting officer did not enter or
track the reports in the audit follow-up system.

Office of Management and Budget (OMB) Circular A-50, “Audit Follow-up,”
September 29, 1982, provides guidance to Federal agencies on establishing audit follow-
up systems to provide for a complete record of actions taken to ensure the prompt and
proper resolution and implementation of audit recommendations. NASA implements
OMB A-50 in part through NFS section 1842.7301, NASA External Audit Follow-Up
System, which states that all reportable contract audit reports shall be entered into
NASA’s CATS II with the information updated at least quarterly until the audit
recommendations are all resolved and dispositioned.

Because CATS II did not contain complete information on all of the DCAA reportable
audit reports that NASA contracting officers retained and dispositioned, the system could
not be relied upon for adequate oversight or reporting purposes. Tracking of all
reportable audit reports in CATS in accordance with OMB and Agency guidance should
improve management oversight and provide assurance that significant audit issues are
promptly and properly resolved.

Oversight of and Communication with DCMA Administrative
 Contracting Officers
NASA contracting officers did not comply with Agency guidance on maintaining
communications with DCMA contract administrators. Specifically, while DCMA
                                                                                             7


prepared adequate documentation to support their negotiation position and effectively
sustain DCAA questioned costs, and maintained the documentation in the contract files,
NASA did not always maintain sufficient oversight on the status, resolution, and
disposition of those findings and recommendations. In addition, NASA did not have
sufficient oversight or tools in place to determine whether all reportable contract audits
dispositioned by DCMA were promptly implemented or resolved in NASA’s best
interests.

NFS 1842.7301 (3) states that
       NASA contracting officers will maintain a dialogue with DOD Administrative
       Contracting Officers who have been delegated activities on NASA contracts. A
       review will be conducted no less frequently than semiannually, and the status and
       disposition of significant audit findings will be documented in the contract file.
       During this review, NASA contracting officers should discuss with the ACO both
       prime and subcontract audit reports that have been delegated to DOD. Should these
       reports contain any findings or recommendations, the NASA contracting officer
       should obtain their status and document the contract file accordingly.

NASA Procurement Information Circular (PIC) 00-06, “Contract Administration and
Audit Services,” May 30, 2000, provides additional guidance emphasizing the
importance of contracting officers maintaining dialogue with DoD administrative
contracting officers in order to review and understand the status of significant audit
findings on prime contracts and subcontracts delegated to DoD.

We found that for four of the eight reports for which DCMA sustained questioned costs
at rates lower than DCAA’s average sustention rates, NASA contracting officers did not
comply with NASA guidance and did not communicate with administrative contracting
officers before or during contract negotiations or subsequent to the resolution of DCAA
recommendations. For example, one contracting officer stated that he did not have any
discussions with DCMA about their negotiation position prior to the administrative
contracting officer reaching an agreement with the contractor because DCMA had the
authority to negotiate with the contractor without obtaining his prior approval. Another
contracting officer stated that she had not discussed DCAA questioned costs or DCMA’s
negotiation or resolution of questioned costs related to her contract. Rather, she relied on
DCMA to notify her of any audit reports that required her attention. While NASA
contracting officers did not always communicate with the administrative contracting
officers, we found that DCMA maintained adequate documentation to support their
disagreements with DCAA’s findings and recommendations. Thus, we were unable to
draw a direct correlation between DCMA’s lower than average sustention rates and
NASA’s lack of oversight.

For the 36 audit reports DCMA dispositioned, we found that NASA did not maintain
required records to track, monitor, or report actions taken. Specifically, the NASA audit
follow-up system did not include records for any of the 36 reports NASA delegated to
DCMA for resolution and disposition. Instead, the Office of Procurement personnel
stated that they relied on DCMA to track and monitor actions taken to implement DCAA
recommendations. DoD requires that DCAA audit recommendations dispositioned by
                                                                                                             8


DCMA be tracked in a DoD tracking system that records the actions taken to resolve and
disposition reportable 4 contract audits. Of the 36 audit reports DCMA dispositioned, we
reviewed 12 to determine whether the status of DCAA recommendations were adequately
tracked and monitored. We found sufficient evidence to conclude that DCMA’s system
adequately tracks, monitors, and reports the status of DCAA recommendations. For
example, we determined that DCMA’s automated Contract Audit Follow-Up tracking
system shows the type of DCAA audit performed, describes the basis for DCAA’s
questioned costs, and gives DCMA’s current resolution and disposition status.

Although DCMA has a system in place to track and monitor the status of DCAA audit
recommendations, we found that Agency guidance does not clearly state whether NASA
requires audit reports that DCMA dispositioned to be entered into the NASA contract
audit follow-up system. Specifically, NFS section1842.7301 (b) states that the external
follow-up system tracks all contract audit reports where NASA has resolution and
disposition authority. However, section (d) (1) states that all [emphasis added] reportable
contract audit reports shall be entered into NASA’s Corrective Action Tracking System
(updated to CATS II) with the information updated at least quarterly until the audit
recommendation are resolved and dispositioned. While it is unclear whether DCMA’s
disposition of recommendations should be tracked in CATS II, NASA remains ultimately
responsible for the management of the contract regardless of whether the administration
of the contract is delegated. Therefore, NASA guidance should clearly require that
NASA contracting officers, as part of their oversight responsibilities of DCMA’s
dispositioning of recommendations related to NASA contracts, ensure that those reports
are also included in CATS II or obtain periodic reports from DCMA on the status of
dispositions. Lacking adequate oversight, visibility, and tracking, NASA cannot be sure
that DCMA resolved audit recommendations on a timely basis or in NASA’s best
interests on approximately $72 million (not sustained) of $77 million of questioned costs.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response
Recommendation 1.a. We recommended that the Assistant Administrator for
Procurement issue a memorandum directing NASA contracting officers to comply with
NASA Federal Acquisition Regulations (FAR) Supplement (NFS) section 1842.7301,
“NASA External Audit Follow-Up System,” to communicate with Defense Contract
Management Agency (DCMA) administrative contracting officers no less frequently than
semiannually and document in the contract file any actions that have an impact on the
resolution and disposition status of Defense Contract Audit Agency (DCAA) audit
findings and recommendations.

4
    PIC 00-06 defines “reportable audits” as reports containing findings and recommendations covering
    (1) estimating systems surveys, accounting and related internal control system reviews, defective pricing
    reviews, and cost accounting standards matters; (2) operations audits, incurred costs, settlement of final
    indirect cost rates, final pricing submissions, terminations settlement proposals, and claims, if reported
    costs or rates questioned or unsupported/qualified equal $100,000 or more; and (3) audit-determined final
    indirect cost rates and form(s) to the administrative contracting officer when the auditor cannot reach an
    agreement with the contractor.
                                                                                           9


   Management’s Response. The Assistant Administrator for Procurement concurred,
   stating a letter will be issued to the Centers reemphasizing the NFS section 1842.7301
   requirement for maintaining communication with the DCMA administrative
   contracting officer and for tracking and resolving reportable contract audit reports. In
   addition, Procurement Management Surveys will be used to monitor compliance with
   the Agency guidance.

   Evaluation of Management’s Response. Management’s proposed action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

Recommendation 1.b. We recommended that the Assistant Administrator for
Procurement issue a memorandum directing NASA contracting officers to comply with
NFS section 1842.7301 to enter all reportable contract audit reports into NASA’s
Corrective Action Tracking System II and update the information at least quarterly until
the audit recommendations are resolved and dispositioned.

   Management’s Response. The Assistant Administrator for Procurement concurred,
   stating that a letter will be issued to the Centers clarifying the Agency’s policy on
   inputting and tracking reportable audit reports in CATS II.

   Evaluation of Management’s Response. Management’s proposed action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

Recommendation 2. We recommended that the Assistant Administrator for
Procurement revise NFS section 1842.7301 to note that all reportable contract audit
reports DCMA dispositions are to be entered into CATS II or request that DCMA provide
periodic status reports to the NASA Office of Procurement on the resolution of DCAA
audit recommendations for use in monitoring the status, resolution, and disposition of
significant findings and recommendations.

   Management’s Response. The Assistant Administrator for Procurement concurred,
   stating that the Agency will amend NFS 1842.7301(d)(1) to clarify that all reportable
   audits that NASA resolves and dispositions will be tracked in CATS II and updated at
   least quarterly until the audit recommendations are resolved and dispositioned. The
   Assistant Administrator also stated that DCMA’s system adequately tracks, monitors,
   and reports the status of DCAA recommendations on contracts for which NASA has
   delegated contract administration responsibility and further tracking these reportable
   audits in CATS II would be an unnecessary duplication of effort. However, the
   Office of Procurement will contact DCMA to discuss a periodic reporting process.

   Evaluation of Management’s Response. Management’s proposed action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.
                                                                                        10


We appreciate the courtesies extended during our audit. If you have any questions, or
need additional information, please contact Mr. Kenneth Sidney, Project Manager, at
281-483-0728.


       /s/
Evelyn R. Klemstine
Enclosures

cc:

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, Glenn Research Center
Director, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
Director, Johnson Space Center
Director, Kennedy Space Center
Director, Langley Research Center
Director, Marshall Space Flight Center
Director, John C. Stennis Space Center
                              Scope and Methodology
We performed this audit from April 2008 through April 2009 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

During our audit, we identified and reviewed NASA guidance to include NASA
Procurement Information Circular (PIC) 00-06, Contract Administration and Audit
Services, May 30, 2000; NASA Federal Acquisition Regulation Supplement (NFS)
1842.202, Assignment of Contract Administration; and NFS 1842.7301, NASA External
Audit Follow-Up System. We also reviewed Federal Acquisition Regulation Part 31,
Contract Cost Principles and Procedures, and Part 42, Contract Administration and Audit
Services.

To determine whether NASA contracting officers effectively sustained DCAA
questioned costs, we

   •   obtained a list from DCAA of all audit reports issued during FYs 2005–2007 with
       at least $100,000 of questioned cost on post-award cost-reimbursable procurement
       actions;

   •   identified 14 reports for which NASA performed contract administration and 36
       reports where DCMA performed contract administration;

   •   calculated the individual report and overall sustention rate of questioned costs for
       the 50 reports issued during FYs 2005-2007 that NASA and DCMA
       dispositioned;

   •   interviewed cognizant NASA contracting officers and performed detailed review
       of five DCAA reports issued to Johnson Space Center that NASA contracting
       officers dispositioned to identify DCAA’s audit findings, questioned costs,
       recommendations, and the contractors’ agreement and disagreement with DCAA
       findings;

   •   obtained DCAA’s average sustention rates on all NASA and non-NASA audit
       reports issued during FYs 2005–2007 that DCAA dispositioned;

   •   identified reports for which DCMA administrative contracting officers sustained
       questioned costs below DCAA average rates;

   •   obtained copies and reviewed DCAA reports for which DCMA administrative
       contracting officers sustained questioned costs below DCAA average rates to


                                                                               Enclosure 1
                                                                               Page 1 of 3
       determine DCAA’s audit findings, questioned costs, recommendations, and the
       contractors’ agreement and disagreement with DCAA findings; and

   •   reviewed DCMA’s memorandums of negotiations with NASA contractors on the
       audit reports for which DCMA administrative contracting officers sustained
       questioned costs below DCAA average rates to assess DCMA negotiation
       rationale and the resolution and disposition of DCAA questioned costs.

   To determine whether NASA promptly implemented and maintained accurate records
   of actions resulting from DCAA recommendations, we

   •   reviewed NASA and the Office of Management and Budget guidance that
       requires audit follow-up systems be established to maintain a record of actions
       resulting from audit recommendations;

   •   interviewed the cognizant NASA contracting officers and reviewed the contract
       files for the five reports issued to JSC where NASA performed contract
       administration to determine and validate whether NASA had maintained records
       of actions resulting from DCAA recommendations;

   •   interviewed NASA Headquarters procurement personnel to determine whether
       NASA tracks the status and resolution of DCAA recommendations when DCMA
       performs contract administration;

   •   interviewed NASA contracting officers and DCMA administrative contracting
       officers to determine whether they had communicated on the resolution of DCAA
       recommendations and NASA had documented actions resulting from DCAA
       recommendations in the contract files;

   •   identified and reviewed applicable DoD instructions; and

   •   interviewed DCMA personnel and obtained supporting documentation that
       DCMA tracks DCAA audit report recommendations where DCMA performed
       contract administration.

Computer-Processed Data. We did not use computer-processed data to perform this
audit.

Review of Internal Controls. We reviewed and evaluated the internal controls
associated with procurement planning and contract administration. Also, we examined
policies and regulations for developing internal control techniques, to include the NASA
Self-Assessments and Procurement Survey Management Reports.

We found that NASA did not ensure contracting officers maintained communications
with DCMA administrative contracting officers on the status of significant DCAA audit



                                                                              Enclosure 1
                                                                              Page 2 of 3
findings, negotiations, resolution, and recommendations on NASA contracts for which
NASA delegated resolution and disposition authority to DCMA.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the NASA
Office of Inspector General have issued two reports addressing the quality of DCAA
audits. Unrestricted reports can be accessed over the Internet at http://www.gao.gov
(GAO) and http://oig.nasa.gov/audits/reports/FY08 (NASA).

Government Accountability Office

“DCAA Audits: Allegations That Certain Audits at Three Locations Did Not Meet
Professional Standards Were Substantiated” (GAO-08-857, July 22, 2008)

National Aeronautics and Space Administration

“Audit of NASA’s Use of Defense Contract Audit Agency (DCAA) Services in
Managing NASA Contracts” (ML-06-011, September 25, 2006)




                                                                            Enclosure 1
                                                                            Page 3 of 3
Management’s Comments




                        Enclosure 2
                        Page 1 of 2
Enclosure 2
Page 2 of 2
